                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-35                                    Office of Inspections                                       June 2013




                   Inspection of
     the Bureau of Consular Affairs, Office of
             the Executive Director




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                                 i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                                 ii
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


                             Table of Contents
Key Judgments                                                            1
Context                                                                  2
Executive Direction                                                      3
  Leadership                                                             3
  Relations with the Office of the Comptroller                           4
  Deputy Assistant Secretary for Resources                               5
  Consolidation of Services                                              6
  Consular Management Pilot Project                                      6
  Regional Consular Officers and Consular Management Assistance Teams    6
  Security                                                               8
  Equal Employment Opportunity                                           8
  Telework and Alternate Work Schedules                                  8
Post Analysis and Support                                               10
Human Resources                                                         15
  Staffing and Internal Management                                      15
  Services to Directorates                                              17
General Services                                                        20
Management Controls                                                     24
List of Recommendations                                                 25
List of Informal Recommendations                                        26
Principal Officials                                                     29
Abbreviations                                                           30




                                           iii
                       SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Key Judgments
   The scope and complexity of resource management in the Bureau of Consular Affairs (CA)
    requires a senior official at the deputy assistant secretary level with authority over the Office
    of the Executive Director (CA/EX), Office of the Comptroller (CA/C), and Office of
    Computer Systems and Technology (CA/CST).

   Supervisory responsibilities for the Post Analysis and Support Division (CA/EX/PAS) should
    be reorganized to reflect the increased number of division employees and the complexity of
    new initiatives. A review of the division’s position grade levels is also needed.

   Bureau leaders have not defined respective roles clearly for CA/EX and CA/C on contract
    matters, particularly for the Global Support Strategy (GSS) contract.

   The Human Resources Division (CA/EX/HRD) has improved its services over the past
    several years; however, the division takes an average of 112 days to complete a hiring action,
    which is longer than the Department of State’s (Department) 80-day hiring goal.

   Reorganization of the procurement and contract administration responsibilities in the General
    Services Division (CA/EX/GSD) would help improve employee expertise in these areas.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 14 and March 15, 2013.
[Redacted] (b) (6)
                                                                              conducted the
inspection with the assistance of [Redacted] (b) (6)




                                         1
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        The Bureau of Consular Affairs, Office of the Executive Director (CA/EX), under the
direction of a Senior Foreign Service officer, consists of 23 Foreign Service and 68 Civil Service
employees. CA/EX’s scope of responsibilities has changed significantly over the past several
years. In 2005, pursuant to an OIG recommendation, CA made the Consular Systems Division
into an independent office reporting directly to its principal deputy assistant secretary. In 2011,
CA established an Office of the Comptroller (CA/C), with responsibility for budget, financial
management, strategic planning and policy, and procurement policy and oversight.

        CA/EX now comprises three divisions: Post Analysis and Support (CA/EX/PAS),
Human Resources (CA/EX/HRD), and General Services (CA/EX/GSD). CA/EX/PAS is staffed
primarily with Foreign Service employees, and CA/EX/HRD and CA/EX/GSD are staffed
almost exclusively with Civil Service employees. The structure, although based on operational
needs, reinforces a separation between Foreign Service and Civil Service employees.

        Most CA/EX/PAS analysts are Foreign Service officers with overseas consular
management experience. Assigned both regional and functional portfolios, they are posts’
principal contact for funding and temporary duty requests, working much like a post
management officer in a regional bureau. They also liaise with regional and functional bureaus
such as the Bureau of Overseas Buildings Operations. A small team of analysts works on
overseas and domestic consular staffing. CA/EX and CA/C coordinate on large projects such as
the Global Support Strategy (GSS) contract and the Cost of Service Model; employee surveys
indicate confusion about boundaries of responsibility.

        CA/EX/HRD provides human resources services to CA’s domestic offices, which include
28 passport agencies and visa processing centers from coast to coast and in Hawaii. CA/EX/GSD
provides general administrative support to the bureau and is currently managing the move and
consolidation of all CA Washington offices to a single location. CA/EX/GSD has a role in
virtually every CA contract. The division also manages, distributes, and accounts for controlled
consular supplies, including visa foils, emergency passports and extra passport pages, and
consular seals.

       OIG last inspected CA/EX in 2005.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Executive Direction
Leadership

        In summer 2012, CA/EX leadership changed completely with the arrival of a new
executive director and deputy executive director. A Senior Foreign Service consular officer, the
executive director sees his role as one of establishing the vision and goals for CA/EX; his major
challenge is to plan and prepare for continued growth in consular and passport work. He often
represents the office or the bureau in meetings. Described as outgoing and believing in well-
defined tasks, the executive director allows staff members to develop their own action plans and
approaches to problem solving. Although this approach works for some, others would prefer that
he set priorities more clearly and specifically. The executive director urges his staff to be
proactive and is a major proponent of the Consular Management Project (1CA).1 His daily
standup meetings, designed to provide updates on the priorities of the day in preparation for the
CA Assistant Secretary’s morning meeting with her deputy assistant secretaries, are open to all
and are an effective way to share information quickly across CA/EX.

        The deputy executive director, an FO-01 management officer, serves as the operations
manager for CA/EX, with direct supervisory responsibility for all three divisions within the
office. A small Foreign Service assignments unit relies heavily on first-hand knowledge of
individual consular officers and works directly with the executive director on assignments, but
the unit is under the supervisory authority of the deputy executive director. Staff members
describe the deputy executive director as very effective in managing the office.

        Morale fluctuates across CA/EX divisions: good morale generally flows from job
satisfaction and supportive relationships with colleagues, whereas poor morale is attributable to
staffing vacancies, uneven workloads, lack of on-the-job training, and sometimes difficult
interpersonal relations with supervisors. A Departmentwide survey of bureau executive directors
revealed generally high marks for collaboration with CA/EX. Similarly, a customer service
survey of all consular posts abroad elicited generally positive responses for all regions. However,
respondents to both surveys noted a continued lack of coordination between CA/EX and CA/C,
which was the subject of a concurrent inspection of CA/C.

Foreign Service and Civil Service

        Over the years, leadership of CA/EX has varied with different combinations of Foreign
Service consular or management officers and Civil Service officers. Each combination brings its
own advantages and disadvantages. One disadvantage of the current arrangement is the lack of
leadership continuity, as both the executive and deputy executive director are Foreign Service
officers who assumed their 2-year assignments in summer 2012. Another is the absence of
Senior Executive Service experience in an office where most employees are Civil Service.

     Although the deputy executive director has direct supervisory responsibility for all three
CA/EX divisions, there is nevertheless a schism between CA/EX/PAS, which is staffed mostly
1
 CA launched this project in November 2012 to facilitate better management of the Department’s global consular
practices.
                                            3
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

with Foreign Service officers, and CA/EX/HRD and CA/EX/GSD, whose employees are largely
Civil Service. At the executive director’s daily standup meetings, most of the participants are
CA/EX/PAS analysts. Usually only the division chiefs or their representatives participate from
the other two divisions.

        Where they interact, the three divisions report good working relationships. However,
even within their divisions, some define CA/EX to be CA/EX/PAS only, with CA/EX/HRD and
CA/EX/GSD functioning almost as separate entities. Although feedback varies, and there may be
less need for executive and deputy executive director attention to the other two divisions, the
general perception is that CA/EX leaders do not spend as much time with CA/EX/HRD and
CA/EX/GSD as with CA/EX/PAS. The disparity is due in part from the physical layout of the
office suites: CA/EX/PAS and CA/EX/HRD have separate entrances, and CA/EX/GSD is on a
separate floor. CA’s upcoming move to a new office building may help, provided that CA/EX
leadership plans its new office layout strategically. Also contributing to the schism are
differences between the Foreign Service and Civil Service cultures and performance
management systems. A better mix of Foreign Service and Civil Service leadership in CA/EX
would help to bridge this gap and facilitate leadership continuity.

Recommendation 1: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should reprogram either the executive director or deputy executive director
position in the Office of the Executive Director to Senior Executive Service. (Action: CA, in
coordination with DGHR)

Relations with the Office of the Comptroller

        The executive director, together with the acting comptroller and the acting director of the
Office of Consular Systems and Technology (CA/CST), meets regularly with the principal
deputy assistant secretary, and both the executive director and acting comptroller meet separately
with the CA/CST acting director. At the start of the inspection, however, they did not meet
regularly one on one to work out how best to collaborate. The inspection team urged the
executive director to initiate regular meetings with the acting comptroller not only to resolve so-
called pain points but also to establish a strong working relationship between two offices that
share responsibility for many of CA’s weightiest duties. During the inspection the executive
director confirmed that he and the acting comptroller had committed to begin meeting regularly.

Global Support Strategy

        GSS is a worldwide, 10-year contract with a maximum value of $2.8 billion. It is
designed to change the way third parties provide information, appointments, fee collection,
document delivery, and greeters for visa services. The purpose of GSS is to provide better
accountability, transparency, and customer service in the support activities that commercial
entities supply to consular sections around the globe. It is a multiple-award contract with two
prime contractors—Computer Sciences Corporation and Stanley Associates, Incorporated—
competing for business under each task order. CA/EX and CA/C have joint responsibility for the
GSS contract, but their roles and responsibilities are not defined clearly. In the December 13,
2011, decision memorandum on management of the CA contracting process, the CA Assistant
Secretary specifically excluded the administration of GSS, with the explanation that she would
                                                  4
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

make a separate determination for this contract. At the time the inspection concluded, CA still
had not formally determined how to manage GSS.

        A CA/EX officer serves as overall contracting officer’s representative for GSS as well as
for 2 of the 17 existing task orders under the umbrella contract. CA/EX is also responsible for the
operational side of all 17 task orders, including primary contact with all posts and vendors. As
with all CA contracts, CA/C is responsible for overall GSS contract oversight, and a CA/C
officer is the contracting officer’s representative for the remaining 15 task orders. In practice,
CA/C does not provide operational support for its 15 task orders but does handle invoicing.
Although disjointed, the system works largely thanks to the knowledge and effectiveness of the
incumbents. However, for sustained efficacy in the management of the GSS contract, it is
important for CA to expedite the delineation of roles and responsibilities for the administration
of GSS. Further, the Assistant Secretary confirmed her preference that CA/C refrain from
serving as the contracting officer’s representative for any contract, including under GSS, if CA/C
also exercises an oversight role for that contract.

       Informal Recommendation 1: The Bureau of Consular Affairs should delineate clearly
       the roles of all offices within the bureau that share responsibility for the Global Support
       Strategy contract, implement this delineation, and communicate it worldwide no later
       than the end of FY 2013.

Deputy Assistant Secretary for Resources

        Although CA/EX is one of the largest executive offices in the Department, the executive
director oversees a smaller operation than that in place during the 2005 OIG inspection. With the
spin-off of the Computer Systems Division to CA/CST in 2005 and the transfer of the Resources
Management Division to CA/C in 2011, CA/EX retains responsibility only for human resources,
overseas post management support, and general services support. The executive director is now
one of three resources office directors reporting to the principal deputy assistant secretary. When
executive directors meet Departmentwide to discuss crosscutting resource issues, it is not clear
whether one, two, or all of CA’s three resources office directors should be present to represent
CA equities.

          In 2012, the CA Assistant Secretary requested Under Secretary for Management approval
to establish a new deputy assistant secretary for resources. As proposed, the resources deputy
assistant secretary would oversee CA/EX, CA/C, and CA/CST, providing policy direction and
leadership to the administrative functions of CA to facilitate the proper coordination of CA’s
resources, policies, and mission. The Under Secretary for Management’s decision on this request
is still pending. The executive director position may be overgraded at the minister counselor
level, given the position’s diminished responsibilities. CA could reprogram the executive
director position to that of a deputy assistant secretary for resources to fill this leadership gap.

Recommendation 2: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should reprogram its executive director position to that of deputy assistant
secretary for resources. (Action: CA, in coordination with DGHR)


                                        5
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Consolidation of Services

       Several CA directorates have internal offices that may duplicate CA/EX functions. With
the scheduled summer 2013 move of all CA’s Washington offices to a single location,
CA/EX/GSD is reviewing mail services, equipment and supply requests, and facilities
maintenance for potential consolidation. There may be other duplicative functions that have not
been identified. CA has made no systematic effort to look at all areas where colocation can
generate efficiencies and cost savings.

       Informal Recommendation 2: The Bureau of Consular Affairs should establish a
       mechanism to identify areas where the colocation of consular directorates can provide
       operational efficiencies and cost savings.

Consular Management Pilot Project

        CA initiated 1CA to help consular officers improve their management skills. Deployment
started during the inspection, with pilot projects designed to test and refine 1CA’s management
framework. CA/EX was the venue for the first pilot, which took place concurrently with the OIG
inspection. The team from CA/EX/PAS chose as its project how to reduce the workload and
increase the effectiveness of the annual consular certification of management controls. At the end
of its weeklong pilot, the CA/EX/PAS team briefed the executive director, deputy executive
director, and others on how it had applied 1CA management tools to achieve its goals. The team
concluded that, if its proposals were approved and implemented, the annual certification could be
reduced from 112 questions to 75, its sections reduced from 23 to 11, and save at least 5 consular
work hours per post. The CA/EX/PAS team estimates that this application of 1CA could
translate into over $250,000 in CA cost savings per year.

       The team also found ways to improve the certification by capturing relevant information
not previously included such as posts’ records of Privacy Act waivers. The CA/EX/PAS team
was pleased by the outcome of its pilot project but noted that it would have no effect without
approval and implementation. The team concluded that although the 1CA toolkit could be useful
to consular managers, the framework was too process focused to independently improve results
of poor consular managers.

Regional Consular Officers and Consular Management Assistance Teams

        Consular officers with extensive field and Washington experience are assigned as
regional consular officers (RCO) to provide oversight and guidance to small consular sections
worldwide. A supervisory RCO assigned to Frankfurt manages 7 RCOs, each of whom travels
twice a year, or approximately 50 percent of the time, to 10–12 posts. Currently, RCOs are
assigned to Frankfurt, Washington, Cairo, Johannesburg, and Bangkok primarily for convenience
of travel to their covered posts.

       The supervisory RCO reports to the CA/EX senior management advisor located in Abu
Dhabi. The senior management advisor is responsible for both the RCO program and the
deployment of Consular Management Assistance Teams (CMAT). OIG last inspected both

                                         6
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

    programs in 2011 and did not repeat that evaluation in this inspection; CA has complied with all
    the recommendations made at that time.

            The fact that the senior management advisor and the supervisory RCO work in locations
    remote from some or all of the employees they supervise is unusual in the Department. In OIG
    surveys and interviews, employees reported satisfaction with the quality of the supervision and
    support they received from their remote managers. Documenting the lessons learned from these
    experiences could help the Department in establishing and evaluating remote supervisory
    relationships in other fields.

            Informal Recommendation 3: The Bureau of Consular Affairs should document
            lessons learned from its experience of remote supervision and make those lessons
            available throughout the Department of State.

            One area of concern was the lack of job-specific orientation and training that most RCOs
    received when taking up their new assignments. RCOs at single-RCO posts did not travel to
    Frankfurt or elsewhere to meet their supervisors and in some cases did not have personal contact
    until several months later.

            Informal Recommendation 4: The Bureau of Consular Affairs should authorize travel
            to Frankfurt for newly assigned regional consular officers to meet in person with their
            supervisors either on the way to post or shortly after their arrival.
[Redacted] (b) (5)




            Informal Recommendation 5:       [Redacted] (b) (5)



             The senior management advisor also coordinates the CMAT program. The internal Web
    site for the program does not outline the program’s objectives clearly and contains outdated
    references.

            Informal Recommendation 6: The Bureau of Consular Affairs should update the
            internal Web site references to the Consular Management Assistance Team program.

           In early 2013, CA/EX/PAS and the Office of Visa Services sent a team to review
    operations at the U.S. Mission to the United Nations, New York, where there is a small visa
    operation dedicated to serving the needs of the diplomatic community. The team noted
    weaknesses in management controls, such as disposal of outdated controlled consular items.
    CA/EX has decided to designate a CA/EX/PAS analyst as a point of contact for domestic
    consular operations. The OIG inspection team suggested using the CMAT program as a tool to
    review and improve operations at domestic consular processing facilities.

                                            7
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Security

        The Bureau of Diplomatic Security assigned a bureau security officer to CA for the first
time in 2011; the officer is colocated with, but does not report to, CA/EX. His principal
responsibility is oversight of the procedural security for protection of classified and sensitive
information. He also serves as CA’s coordinator for sensitive compartmented information
clearances. Each CA directorate has a designated unit security officer with whom the bureau
security officer coordinates.

        The bureau security officer issued three bureau notices on security matters from 2011 to
2013; filed with other CA bureau management notices on the CA Web site, the notices are
readily available to all employees. He has also circulated several email reminders on various
security topics. Given CA’s size and the scope of its work, these communication measures may
not be sufficient to maintain an adequate level of security awareness. CA’s imminent
consolidation of all headquarters directorates in a single location provides an opportunity for
more systematic communication and reinforcement of security information to employees.

       Informal Recommendation 7: The Bureau of Consular Affairs should implement a
       plan for its bureau security officer to communicate security information systematically to
       employees.

        Although Bureau of Diplomatic Security funds are available for travel, the bureau
security officer has not visited any of CA’s locations outside Washington, including the 28
passport agencies and processing centers in the United States. The bureau security officer could
consult in person with unit security officers and employees on procedural security for protection
of sensitive and classified information.

       Informal Recommendation 8: The Bureau of Consular Affairs should assist its bureau
       security officer establish priorities for travel to passport agencies and other U.S.
       locations.

Equal Employment Opportunity

         CA has 53 Equal Employment Opportunity counselors, 9 of them in various CA
directorates in the Washington, DC, area. The remaining 44 are located in passport agencies
around the country. Information on the program is posted in the building currently occupied by
CA/EX and CA/C, and preinspection survey material indicated that employees believe CA to be
alert to possible discrimination.

Telework and Alternate Work Schedules

       Although CA/EX has employees who telework or operate on alternate work schedules,
CA does not have official policies for either, citing instead the Departmentwide policy. Survey
responses confirmed confusion among staff members about bureau policy. CA/EX management
began developing these policies after inspectors drew their attention to the situation. A
bureauwide policy would help to reduce staff confusion, facilitate the evaluation of all employee
requests for telework or alternate work schedules against consistent criteria, and clarify the use
                                                   8
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

of situational and emergency telework. Employees requesting telework and their supervisors
must complete an online course prior to receiving telework authorization. Both CA/EX/HRD and
CA/EX/GSD have employees who telework from overseas, all of whom have signed the required
telework agreements.

       Informal Recommendation 9: The Bureau of Consular Affairs should issue
       comprehensive policies on telework and alternate work schedules and require that all
       employees who telework and their supervisors complete the mandatory training.




                                       9
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Post Analysis and Support
         CA/EX/PAS analyzes and monitors overseas consular management, staffing, and
resource concerns; maintains liaison with regional and functional bureaus as well as other
agencies; and handles CA’s assignments and temporary staffing programs. Survey respondents
and Department contacts praised the division for the quality and timeliness of its responsiveness
to their requirements. The CA/EX/PAS permanent staff grew from 6 full-time employees in 2005
to 15 at the time of the inspection. This expansion reflects the growth in overseas consular
positions from 1,100 to 1,700 in the past 10 years, coupled with the increased complexity and
scope of the headquarters workload. As it has grown, the division has effectively split into two
informal teams: the regional/functional team that focuses on consular management issues for
their assigned countries, and the assignments/staffing team that manages Foreign Service
consular positions, bidding, assignments, and temporary overseas consular staffing.

         The bidding and assignment functions are critical to filling Foreign Service positions, and
the CA/EX/PAS team strives with notable success to manage a process that puts the right people
in the right jobs, is fair, and achieves an appropriate level of transparency. Last year, for
example, CA/EX/PAS instituted a list of the top 10 hard-to-fill consular positions and filled
every one. CA anticipates there will be more third-tour consular bidders than positions in the
future and has proposed new management training positions for some larger posts to use these
officers’ experience. The evolution in the complexity and volume of consular work has not been
matched by commensurate promotions for consular officers. Finding that many positions were
incorrectly designated, CA/EX initiated requests to redesignate about 70 positions as consular,
with the probable result of greater opportunities for consular promotions. CA/EX’s systematic
review of overseas consular manager positions to determine whether increased responsibilities
justified higher grade levels has resulted in 25 position upgrades to date.

        Managing staffing to match the growth in workload is a major component of the
division’s work. To supplement permanent Foreign Service consular staff, CA uses nine different
temporary hiring programs. One example, designed to bring temporary hires with the required
language into the Department, is a limited noncareer appointee consular hiring program, which
debuted in Brazil and China in 2012. Established in accordance with Executive Order 13597, the
limited noncareer appointee program enabled CA to reduce visa wait times to acceptable levels.
The program can be expanded. Together with when actually employed and temporary duty
employees, the limited noncareer appointees provide CA with the flexibility to respond rapidly to
changes in demand for services. Should a comprehensive immigration reform bill be passed, CA
anticipates a substantially increased need for additional consular and support staff. CA/EX is
well positioned to address the challenge.

        The current CA/EX/PAS supervisor is an experienced consular officer who focuses on
the staffing and human resources work of the division and leaves the regional analysts to seek
guidance elsewhere. Reorganizing CA/EX/PAS into two formal units would provide adequate
supervision to both units while they continue to work closely together to support and staff
overseas consular operations.



                                       10
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 3: The Bureau of Consular Affairs should reorganize the Post Analysis and
Support Division to provide effective supervision of the assignments/staffing and
regional/functional support teams. (Action: CA)

        Foreign Service and Civil Service regional management analysts have comparable duties,
report to the same supervisor, and back up their colleagues as needed, but they have different
grades. This disparity has lowered morale and blurred the chain of command. In response to a
2005 OIG recommendation, CA initiated actions to adjust the analyst grade levels; however,
subsequent growth in staff and the reorganization of responsibilities warrant a new review of
CA/EX/PAS position grade levels and appropriate adjustments.

Recommendation 4: The Bureau of Consular Affairs should update all management analyst
position descriptions to reflect their actual responsibilities and submit the new position
descriptions for classification. (Action: CA)

Seasonal Overseas and Domestic Staffing

        One CA/EX/PAS analyst, with the help of colleagues and occasional temporary staff,
runs the largest temporary staffing program in the Department: 128 when actually employed
personnel; a varying number of Civil Service employees, including selected and trained passport
employees; and direct-hire Foreign Service officers who need short-term assignments. The
analyst oversees approximately $4.5 million in travel and miscellaneous expenses for this
purpose. Approximately 70 percent of the when actually employed staff is assigned each summer
for an average of 6–12 weeks overseas to assist posts with seasonal surges of visa applicants.
Other temporary personnel work in various CA domestic offices throughout the year on special
projects or fill in for or assist full-time staff. In 2012 there were 465 temporary duty assignments.

        Managing this temporary workforce is a challenge. The CA/EX/PAS analyst recruits and
matches personnel with requests from posts and helps with travel arrangements and paperwork
relating to these temporary assignments. The analyst maintains communications through emails
and regular reminders about administrative matters. She also reviews the biweekly Time and
Attendance Telecommunications Line submission and corrects any mistakes, but she is not the
timekeeper’s supervisor. Despite her efforts, when actually employed employees reported a long-
standing problem relating to prompt and accurate payment. The inspectors reviewed evidence of
delayed and inaccurate payments going back at least a year, with the most serious incident in pay
period 24 in 2012, when none of the when actually employed personnel were paid on time. The
analyst, who was overseas on a temporary assignment at the time, has kept senior CA/EX
leadership informed of the problem, and CA/EX is working to improve the situation and to
comply with 12 Foreign Affairs Handbook (FAH)-3 H-116.3-4.

       Informal Recommendation 10: The Bureau of Consular Affairs should establish a
       process to monitor the accuracy and timeliness of payments to when actually employed
       personnel in accordance with Department of State regulations.




                                        11
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Training and Orientation

        The bureau and Department have orientation programs for newcomers, but CA/EX/PAS
lacks a job-specific training program. There is a checklist for new arrivals, and the analysts have
informally organized a series of informative briefings. Support among division team members is
outstanding. However, CA has not identified appropriate training and made it part of the
orientation for new CA/EX staff. Relevant formal training could include the Post Management
Officer Tradecraft course at the Foreign Service Institute, one of the International Cooperative
Administrative Support Services courses, and one or more human resources courses. A training
plan and mentor for each officer would also be beneficial.

       Informal Recommendation 11: The Bureau of Consular Affairs should develop a
       training and orientation plan, including formal relevant courses, for each new officer
       assigned to the Post Analysis and Support Division.

Travel Policy

         CA/EX staff members and posts benefit from CA/EX/PAS analysts’ familiarization travel
to posts they support. Although the analysts are generally expected to visit posts in their assigned
regions, there is no clear policy stating that they do so. At least one officer had not traveled at all
in the first 18 months on the job. A travel plan appropriate to each analyst’s duties, including
trips to key posts for orientation, CMATs, and relevant off-site courses, would help analysts
develop the expertise to support their posts fully.

       Informal Recommendation 12: The Bureau of Consular Affairs should implement a
       policy requiring each analyst in the Post Analysis and Support Division to prepare a
       travel plan at the beginning of a tour and should approve and fund appropriate travel as
       time and resources permit.

Consular Agencies

        Consular agents are appointed under limited noncareer appointee authority. They already
reside abroad and work under the supervision and direction of the principal consular officer in
their area. There are currently 55 consular agencies in 26 countries that provide assistance to
American citizens in locations where access to U.S. consulates or embassies is difficult, where
there are large concentrations of American citizens, or where other special circumstances exist.
Until March 2012, CA and the geographic bureau shared responsibility for funding and
administrative support to the agencies. There were relatively few common standards for
establishing or overseeing agencies, and support varied from bureau to bureau. In June 2012, the
Bureau of Diplomatic Security published revised physical security standards for consular
agencies in 12 FAH-5 H-123. At that time, CA assumed responsibility for the entirety of
consular agency policy, funding, and support.

       The management analyst in charge of the consular agency program has been working in
cooperation with the supervising posts, the Bureau of Diplomatic Security, and the regional
bureaus to develop consistent standards for evaluating the utility of existing consular agencies,
updating support material for consular agents, and generally bringing greater consistency to the
                                                12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

program. This effort is a work in progress, but there are two major unresolved issues. First, not
all consular agencies have access to the Department’s OpenNet; CA/EX, CA/CST, and the
Bureau of Information Resource Management are actively working on this complex problem.
Second, the consular agents guidebook dates from 2003 and does not provide consular agents
with access to CA’s most recent guidance.

       Informal Recommendation 13: The Bureau of Consular Affairs should update the
       consular agents guidebook to reflect current policy guidance and program support.

Protective Powers

        CA/EX/PAS is also responsible for reconciling the reimbursement claims of governments
that protect American interests in locations where the United States has no representation. At the
time of this report, these governments were the Czech Republic for Syria, Switzerland for Cuba
and Iran, and France for the Central African Republic. Sweden is the protective power in North
Korea, but reimbursements for this one country are processed in the Office of Overseas Citizens
Services. There is no record or explanation for this inefficient and inconsistent procedural
difference.

       Informal Recommendation 14: The Bureau of Consular Affairs should unify all
       protective power reimbursement reconciliation under the Post Analysis and Support
       Division.

Consular Workload Statistics System (Consular Package)

         The Consular Workload Statistics System, known as the consular package, is a required
annual electronic narrative and statistical report designed to facilitate analysis of consular
staffing, equipment, space needs, and workload trends. CA/EX/PAS coordinates the reporting
process. The information is available to a wide range of Department users, but within CA there is
very little analysis of the information for long-range planning.

        Workload statistics in the post-specific consular packages are prepopulated mostly from
central databases, with certain exceptions where there is a lack of consistent data. Consular
sections are required to add a post narrative, staff hour details, and workload projections.
CA/EX/PAS is providing input to CA/CST as the latter works on the next generation of consular
applications to streamline the consular package, improve data accuracy and consistency, and
further reduce the reporting burden on overseas posts.

Data Analysis

        CA/EX/PAS has one contractor who provides data analysis and workload forecasting,
using data from the Consolidated Consular Database and other sources. This analysis, among
other uses, helped determine the best location of two new consulates now being established in
Brazil. To provide timely reports, however, the analyst has resorted to using public domain
software outside the office and normal working hours.


                                       13
                           SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 15: The Bureau of Consular Affairs should acquire
appropriate data analysis, mapping, and forecasting software for the Post Analysis and
Support Division analyst’s use.




                               14
                   SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Human Resources
        CA/EX/HRD is responsible for position classification, recruitment, discipline, and
administration of all human resources actions for CA’s 2,700 domestic Civil Service employees
at 28 passport agencies, domestic processing centers, and the Washington, DC, headquarters.
OIG surveys show that customers appreciate the improved quality and timeliness of the
division’s service over the past several years. CA/EX/HRD’s emphasis on employee relations,
including training and coaching supervisors throughout CA, has improved the culture of
accountability for employee performance.

        CA/EX/HRD has approval to manage its own hiring actions. The Bureau of Human
Resources 2012 review of CA/EX/HRD’s hiring procedures listed them as satisfactory but with
two systemic issues, both of which the division has corrected.

Staffing and Internal Management

        Staff turnover in CA/EX/HRD dropped from 42 percent in FY 2008 to 14 percent in FY
2011. However, only a third of the staff has been in the division for more than 3 years. With
another six new staff members expected shortly, the experience gap will be even greater. In
August 2011, the director established four cross-functional teams responsible for recruitment and
staffing at specific passport agencies and CA directorates, an initiative that customers in an OIG
survey cited as a major reason for the improvement in services.

        Each team of six to eight specialists is headed by a coordinator and reports to one of two
branch chiefs. This organizational structure allows teams to provide seamless coverage to their
customers while learning all aspects of human resources work. As coordinators have latitude to
organize their teams’ work, they use different tracking systems and procedures to perform the
same type of work. There are few written standard operating procedures, and employees indicate
that existing procedures are difficult to locate on the division’s shared computer drive.
Employees on different teams rarely communicate. Regular meetings among team coordinators
to share ideas and best practices would help standardize processes and provide the coordinators
an opportunity to share information and improve procedures.

       Informal Recommendation 16: The Bureau of Consular Affairs should schedule regular
       meetings among the cross-functional team coordinators in the Human Resources Division
       to standardize work procedures and tracking systems to improve the timeliness of
       recruitment and hiring actions.

       Informal Recommendation 17: The Bureau of Consular Affairs should develop
       standard operating procedures for all human resources actions and make them available
       to all division employees.

       Branch chiefs and team coordinators do not meet regularly with the Office of Passport
Services (CA/PPT), the office that coordinates hiring between the agencies and CA/EX/HRD, or
with some of the other bureau directorates. Regular meetings with CA/PPT, the division’s


                                       15
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

biggest customer, would improve communication and knowledge in both offices. Establishing
regularly scheduled meetings with the smaller directorates and offices would also be useful.

       Informal Recommendation 18: The Bureau of Consular Affairs should schedule regular
       meetings among the Human Resources Division and the bureau directorates, with special
       focus on the Office of Passport Services, to exchange information and discuss upcoming
       hiring needs.

New Employee Training

         The Department requires new human resources employees to take training in the Global
Employment Management System and the Hiring Manager application before they can access
computer systems to process personnel and hiring actions. Because of a lack of available classes,
it can take 2 months or more to enroll. Although these employees are assigned tasks that do not
require system access, the division has yet to develop standard procedures to allow new
employees to be as productive as possible during the wait for classroom training. The division
also lacks a formalized program for mentoring and on-the-job training. Employees indicate that
the team coordinators are supposed to mentor new employees but often lack the time to do so.
Staff members are willing to answer questions and assist new employees but do so on an ad hoc
basis. A formalized program would give new employees a better foundation for their work and
could also improve morale and the speed and quality of their work.

Recommendation 5: The Bureau of Consular Affairs should institute a formalized mentoring
and training program for new employees in its Human Resources Division. (Action: CA)

        The CA/EX/HRD training office is responsible for providing a list of required and
recommended training to new division employees. However, the office is not always informed
when new staff members join the division from other Department offices. These employees may
not receive the training list or receive it after they have already completed their own research.

       Informal Recommendation 19: The Bureau of Consular Affairs should institute a
       procedure within the Human Resources Division to provide the training office with
       arrival information for all new employees.

        CA/EX/HRD, in collaboration with the Bureau of Human Resources, is considering
adopting an Office of Personnel Management-developed automated staffing system. This new
system, USA Staffing, requires less training, is more intuitive, is more flexible in the actions it
performs, and could be more cost efficient than the Hiring Manager program the Department
currently uses. If this proposed pilot program succeeds, CA would offer to purchase the new
system for the Department. The inspection team supports this proposal.

Tracking Staffing Actions

       To determine whether CA/EX/HRD meets the Office of Management and Budget’s 80-
day goal for completing staffing actions, the division tracks its staffing actions once it receives a
complete hiring package from the requesting office. The division does not have a common
procedure for tracking the time it takes to work with the requesting office to correct an
                                                 16
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

incomplete hiring request or to document how long each step in the hiring process takes. The
automated hiring systems mentioned above do not have this capability. Nor does the
Department’s automated tracking system, HR Customer Connect, provide this level of detail.
Analyzing such data would allow the division to determine whether it has adequate staff to meet
performance standards and to identify process improvements and training requirements. CA/EX
has offered to investigate and possibly purchase additional software for HR Customer Connect to
improve its capabilities, but the Bureau of Human Resources has yet to make a decision on this
proposal.

       Informal Recommendation 20: The Bureau of Consular Affairs should implement
       procedures for the Human Resources Division to track all stages of its staffing actions,
       beginning with the initial request.

Knowledge Management

         CA/EX/HRD keeps its policies, procedures, spreadsheets, and other useful information
on a poorly organized shared network drive in documents that are often undated. During the
inspection, the division began collecting, updating, and posting standard operating procedures on
its internal SharePoint site. Posting policies, guidance, and documents that track the status of
employment actions on SharePoint, or employing a similar collaborative software tool that
allows easy access to this information, would also be useful to CA/EX/HRD customers.

       Informal Recommendation 21: The Bureau of Consular Affairs should establish a
       SharePoint or other collaborative software site for the Human Resources Division to
       maintain and post policies, procedures, tracking, and other information for both internal
       staff and bureau customers.

Services to Directorates

         At the time of the inspection, CA had 346 vacant positions, although offices had yet to
start the recruitment process for some of these vacancies. CA/C had the largest percentage of
vacancies, at 52 percent, followed by CA/CST at 39 percent. The largest number of vacancies
was in CA/PPT, which had 210 vacancies, or 10 percent of its authorized positions. In FY 2012,
the average time for completing hiring actions, excluding the security clearance process, was 112
days, compared to the overall Department average of 91 days.

Position Classification

        CA/EX/HRD classifies general service schedule positions to establish the grade, salary,
and promotion potential based on the duties and responsibilities of the position. At the time of
the inspection, the single full-time, experienced classifier had received requests to classify almost
70 positions. In addition, 3 Foreign Affairs Manual (FAM) 2638.2 requires that all bureau
position descriptions be formally reviewed on a periodic basis for accuracy. Other cross-
functional team members classify positions on a part-time basis, but they generally do not have
the time or experience to handle complex or uncommon positions. Hiring and training additional
classifiers will improve the accuracy, quality, and timeliness of division staffing actions.

                                        17
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        A review of CA position descriptions shows 279 positions classified under series 301, a
miscellaneous category that is to be used only when a relevant position series does not exist
within the U.S. Government. Although some of these positions may be classified accurately as
series 301, others—including customer service managers, operations officers, administrative
analysts, managing directors, and special assistants—are incorrect. CA directorates have many
other positions with out-of-date descriptions. Proper position classification is essential to the
correct listing of job duties and the recruitment of suitably qualified candidates. Additional
classifiers will give CA the capacity to review all its Civil Service positions and reclassify them
as necessary.

Recommendation 6: The Bureau of Consular Affairs should hire and train a minimum of three
additional full-time position classifiers. (Action: CA)

Employee Evaluations

        CA/EX/HRD manages CA’s employee evaluation process. CA completed 93 percent of
its 2012 Civil Service evaluations on time compared to 85 percent Departmentwide. Eighty-five
percent of CA’s work commitments for 2013 are also complete. For Foreign Service domestic
positions, the evaluation completion figures are 93 percent for CA and 87 percent for the
Department.

Employee Relations

        Established in 2009, the Employee Relations Branch employs a branch chief and a staff
of eight specialists who are dedicated to performance and conduct issues, including performance
improvement plans, demotions, suspensions, terminations, and appeals. In FY 2011, CA
terminated 24 employees based on the work of the Employee Relations Branch. The branch chief
and team members also provide regular training on management and performance issues to new
CA/PPT supervisors and are considering expanding that training to include other bureau
supervisors.

        Three of eight specialists work in Washington, DC; another works remotely from The
Bahamas. The remaining four, known as liaisons, work at passport agencies in Portsmouth,
Charleston, Houston, and Seattle. The branch chief holds biweekly telephone meetings with each
and a monthly team meeting that all remote staff members attend via teleconference. All liaison
officers also spend 1 week each quarter in Washington. Despite this regular communication,
employees both in Washington and in the field are sometimes unaware of changes in policies and
procedures or of other pertinent information. Posting this information on the division’s
SharePoint or other collaborative software site would make that information available in a timely
manner to all branch employees.

       Informal Recommendation 22: The Bureau of Consular Affairs should implement
       procedures to place information needed by the Employee Relations Branch on the Human
       Resources Division’s SharePoint site or another collaborative software site.



                                        18
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Training Office

        CA/EX/HRD’s training office conducts an orientation program for new CA employees
during the first 2 days of an employee’s tenure. The division also offers quarterly 1-day, bureau-
specific orientation programs for Department employees transferring to CA.

        Employees in CA’s passport agencies and processing centers outside Washington often
receive little orientation to either the Department or the bureau. Training officers have traveled to
several passport agencies to provide orientation to employees who entered on duty within the
previous 6 months. All CA employees are invited to attend the quarterly CA-specific orientation
program in Washington, DC. However, CA/PPT will authorize travel expenditures only for
newly hired passport employees at the supervisory level. CA/EX/HRD is considering various
ways to provide an orientation program at all passport agencies and regional offices but has not
reached a decision on how best to do so. Providing detailed and uniform orientation material to
passport agencies and regional offices is a cost-effective method to introduce all CA employees,
regardless of location, to their organization.

       Informal Recommendation 23: The Bureau of Consular Affairs should provide
       orientation material to Human Resources Division offices and agencies located outside
       the Washington metropolitan area and monitor material dissemination so that all new
       bureau employees receive the information.




                                        19
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


General Services
       A Foreign Service officer heads CA/EX/GSD, the division responsible for travel, asset
management, wireless management, procurement, and much of the bureau’s contracting
operations. The division is also in charge of coordinating the upcoming move of all CA’s
Washington, DC, offices into one building. During FY 2012, the bureau submitted more than
750 procurement actions through the Ariba procurement system, with a total value of $667
million. Customers are generally satisfied with the quality and timeliness of the services they
receive from the division.

        Three of the division’s 11 specialists have specific duties—travel, asset management, and
the wireless program—whereas the other 8 handle all aspects of procurement and contract
administration for specific bureau offices and passport agencies. The specialists responsible for
travel and asset management also administer at least one contract each. Several specialists are
also contracting officer’s representatives for the contracts they manage.

        The requirement that all specialists administer at least one contract makes it difficult for
employees with procurement responsibilities to become thoroughly knowledgeable about any
aspect of procurement. For employees with no procurement responsibilities, adding contract
management is an unnecessary distraction from their primary duties. A more logical arrangement
would be to split the contract administration and other procurement-related activities so that all
specialists could master their assigned duties. Creating two teams, each headed by a
nonsupervisory team leader, would increase the guidance the specialists receive while allowing
the support services supervisor to focus on what is most needed.

Recommendation 7: The Bureau of Consular Affairs should reorganize the General Services
Division specialists into two teams, revise their position descriptions to reflect their current
duties, and reclassify their position descriptions to reflect the corresponding changes in their
duties. (Action: CA)

       CA/PPT and CA/CST are CA/EX/GSD’s largest customers. In the past, CA/EX/GSD and
CA/PPT management met regularly to discuss matters affecting their operations. These meetings
stopped several months ago. CA/EX/GSD management meets with CA/CST management only
on an ad hoc basis and rarely with the bureau’s smaller directorates of Overseas Citizens
Services and Visa Services. Regular meetings with the directorates will help CA/EX/GSD
improve communication and customer service while keeping everyone abreast of possible
problems and upcoming requirements.

       Informal Recommendation 24: The Bureau of Consular Affairs should schedule regular
       meetings among the General Services Division director and office directors in other
       bureau directorates.

        CA/EX/GSD has a SharePoint site that it rarely uses. Instead, policies and guidelines are
distributed by email and kept either in personal email boxes or on the division’s poorly organized
shared computer drive. Posting policies, procedures, and guidance on a SharePoint site or other


                                       20
                           SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

collaborative software site would allow staff and purchase card holders easy access to
information needed for their jobs.

           Informal Recommendation 25: The Bureau of Consular Affairs should establish a
           SharePoint or other collaborative software site for the General Services Division to
           maintain and post policies, procedures, and other information for both internal staff and
           bureau customers.

        CA/EX/GSD is responsible for more than $117 million in accountable property at 65
domestic locations. The FY 2013 property reconciliation showed a missing property rate of less
than 0.04 percent, far below the Department’s 1 percent limit. CA/EX/GSD also manages the
bureau’s purchase and payment card system, one of the Department’s largest, with 4,487
transactions in FY 2012 valued at almost $4.9 million. The 2012 annual program review found
no problems. A Department internal audit of the records of the travel unit, which processes
approximately 1,000 actions per month, found only 7 minor questionable actions over a 6-month
period.

Procurement

        CA/EX/GSD’s two experienced procurement analysts, assisted by contract staff, prepare
and manage most of the bureau’s contracting actions. CA/PPT and CA/CST also prepare
contracts. CA/C’s Procurement, Policy, and Oversight Division is responsible for contract
oversight and has a role in handling the $2.8 billion GSS contract. Although CA/C has been in
existence for 2 years, only now are CA/EX/GSD and CA/C determining the roles of each office.
At the time of the inspection, the bureau had 106 contracts with a total value of $4.9 billion. CA
currently has no automated database to monitor these contracts and, until shortly before this
inspection, no complete list of bureau contracts. A recommendation regarding an automated
database is included in the concurrent inspection of CA/C.

       CA/EX/GSD is responsible for coordinating, reviewing, and, in some cases, preparing the
information needed to issue a contract request for proposal. Lack of continuous contractor
support increases the time it takes procurement analysts to complete these actions. Having
contractors in place, rather than issuing a solicitation each time one is needed, would also
improve the division’s institutional memory regarding its larger contracts.

           Informal Recommendation 26: The Bureau of Consular Affairs should provide
           continuous contractor support to the General Services Division’s contracting office.

        Once CA/EX/GSD completes requests for proposals, the contract package is forwarded
to the Bureau of Administration, Office of Acquisitions Management, to be issued and awarded.
CA/PPT prepares and manages some passport-specific contracts, although CA/EX/GSD has the
technical skills to handle these contracts. CA/CST is responsible for preparing and managing
contracts related to computer systems and support. All three offices deal directly with the Office
of Acquisitions Management, and there is little coordination among them. The 2011 OIG
inspection2 of CA/CST issued an informal recommendation requiring CA to delineate the

2
    Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology, ISP-I-11-51, May 2011.
                                              21
                                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

interaction of bureau offices with the Office of Acquisitions Management regarding contracting
and procurement functions. CA has not yet implemented this recommendation.

Recommendation 8: The Bureau of Consular Affairs should delineate clearly the appropriate
roles of its business offices with regard to their interaction with the Bureau of Administration’s
Office of Acquisitions Management. (Action: CA)

         The division’s senior procurement analyst regularly provides training to the specialists
on contract administration-related matters, and all specialists are required to take courses in
simplified acquisitions and the duties of a contracting officer’s representative. All contracting
officer’s representatives in CA/EX/GSD have the required written designation.

Move Planning

        At the time of the inspection, CA was preparing for its summer 2013 move. CA/EX/GSD
has the bureau lead in coordinating the plans for the building renovation with the General
Services Administration; the Bureaus of Administration, Diplomatic Security, and Information
Resource Management; and other stakeholders, including within CA. The division established an
intranet site and organized a series of town hall meetings to share information with the affected
directorates. The CA directorates gave CA/EX/GSD high marks for making the plans and
preparations as clear and transparent as possible and for involving each directorate early and
often in the process.

Controlled Consular Supplies

         The division manages a stockroom within the Bureau of Administration’s warehouse in
Springfield, Virginia, where it receives, stores, and distributes controlled consular supplies and
equipment to overseas consular sections. These supplies include, among other items, blank visa
foils, and blank emergency travel documents and passport pages. A small amount of files and
other material awaiting disposal also is stored at this location. The division recently issued a
policy restricting storage at this location to controlled consular supplies.

        Until recently, the three-person stockroom team consisted of one Civil Service employee
and two support contractors. CA converted one of those contract positions to a Civil Service
position to provide greater management and oversight flexibility. However, there is now
confusion concerning authority, responsibility, and chain of command.

       Informal Recommendation 27: The Bureau of Consular Affairs should establish a clear
       supervisory chain of command at the General Services Division stockroom.

        The ordering, receiving, and shipping of accountable items are well organized and
carefully controlled. The stockroom team created an intranet CA supply catalog that is very
helpful to consular sections overseas. However, there are no written internal standard operating
procedures to institutionalize processes and serve as guidelines.



                                       22
                           SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 28: The Bureau of Consular Affairs should establish written
standard operating procedures concerning the ordering, receiving, and shipping of
accountable consular supplies in the General Services Division.




                              23
                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
        CA/EX advises overseas posts on completion of the annual consular management
controls certification, required by 7 FAH-1 H-624.2-1. According to 7 FAH-1 H-636, a
management analyst in CA/EX drafts guidance and answers posts’ questions about consular
management controls, whereas other CA directorates develop policies and procedures relating to
their operational areas. This division of responsibility ensures that management control policies
are realistic and takes into account the operational requirements of overseas consular sections
and domestic passport agencies. However, unless the policy is carefully coordinated bureauwide,
there is a risk that directorates might issue contradictory guidance. In a concurrent report, the
OIG team recommended that the policy coordination responsibility be assigned to CA/C.




                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should reprogram either the executive director or deputy executive director
position in the Office of the Executive Director to Senior Executive Service. (Action: CA, in
coordination with DGHR)

Recommendation 2: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should reprogram its executive director position to that of deputy assistant
secretary for resources. (Action: CA, in coordination with DGHR)

Recommendation 3: The Bureau of Consular Affairs should reorganize the Post Analysis and
Support Division to provide effective supervision of the assignments/staffing and
regional/functional support teams. (Action: CA)

Recommendation 4: The Bureau of Consular Affairs should update all management analyst
position descriptions to reflect their actual responsibilities and submit the new position
descriptions for classification. (Action: CA)

Recommendation 5: The Bureau of Consular Affairs should institute a formalized mentoring
and training program for new employees in its Human Resources Division. (Action: CA)

Recommendation 6: The Bureau of Consular Affairs should hire and train a minimum of three
additional full-time position classifiers. (Action: CA)

Recommendation 7: The Bureau of Consular Affairs should reorganize the General Services
Division specialists into two teams, revise their position descriptions to reflect their current
duties, and reclassify their position descriptions to reflect the corresponding changes in their
duties. (Action: CA)

Recommendation 8: The Bureau of Consular Affairs should delineate clearly the appropriate
roles of its business offices with regard to their interaction with the Bureau of Administration’s
Office of Acquisitions Management. (Action: CA)




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Consular Affairs should delineate clearly the
roles of all offices within the bureau that share responsibility for the Global Support Strategy
contract, implement this delineation, and communicate it worldwide no later than the end of FY
2013.

Informal Recommendation 2: The Bureau of Consular Affairs should establish a mechanism
to identify areas where the colocation of consular directorates can provide operational
efficiencies and cost savings.

Informal Recommendation 3: The Bureau of Consular Affairs should document lessons
learned from its experience of remote supervision and make those lessons available throughout
the Department of State.

Informal Recommendation 4: The Bureau of Consular Affairs should authorize travel to
Frankfurt for newly assigned regional consular officers to meet in person with their supervisors
either on the way to post or shortly after their arrival.

Informal Recommendation 5: [Redacted] (b) (5)


Informal Recommendation 6: The Bureau of Consular Affairs should update the internal Web
site references to the Consular Management Assistance Team program.

Informal Recommendation 7: The Bureau of Consular Affairs should implement a plan for its
bureau security officer to communicate security information systematically to employees.

Informal Recommendation 8: The Bureau of Consular Affairs should assist its bureau security
officer establish priorities for travel to passport agencies and other U.S. locations.

Informal Recommendation 9: The Bureau of Consular Affairs should issue comprehensive
policies on telework and alternate work schedules and require that all employees who telework
and their supervisors complete the mandatory training.

Informal Recommendation 10: The Bureau of Consular Affairs should establish a process to
monitor the accuracy and timeliness of payments to when actually employed personnel in
accordance with Department of State regulations.

Informal Recommendation 11: The Bureau of Consular Affairs should develop a training and
orientation plan, including formal relevant courses, for each new officer assigned to the Post
Analysis and Support Division.
                                                26
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: The Bureau of Consular Affairs should implement a policy
requiring each analyst in the Post Analysis and Support Division to prepare a travel plan at the
beginning of a tour and should approve and fund appropriate travel as time and resources permit.

Informal Recommendation 13: The Bureau of Consular Affairs should update the consular
agents guidebook to reflect current policy guidance and program support.

Informal Recommendation 14: The Bureau of Consular Affairs should unify all protective
power reimbursement reconciliation under the Post Analysis and Support Division.

Informal Recommendation 15: The Bureau of Consular Affairs should acquire appropriate
data analysis, mapping, and forecasting software for the Post Analysis and Support Division
analyst’s use.

Informal Recommendation 16: The Bureau of Consular Affairs should schedule regular
meetings among the cross-functional team coordinators in the Human Resources Division to
standardize work procedures and tracking systems to improve the timeliness of recruitment and
hiring actions.

Informal Recommendation 17: The Bureau of Consular Affairs should develop standard
operating procedures for all human resources actions and make them available to all division
employees.

Informal Recommendation 18: The Bureau of Consular Affairs should schedule regular
meetings among the Human Resources Division and the bureau directorates, with special focus
on the Office of Passport Services, to exchange information and discuss upcoming hiring needs.

Informal Recommendation 19: The Bureau of Consular Affairs should institute a procedure
within the Human Resources Division to provide the training office with arrival information for
all new employees.

Informal Recommendation 20: The Bureau of Consular Affairs should implement procedures
for the Human Resources Division to track all stages of its staffing actions, beginning with the
initial request.

Informal Recommendation 21: The Bureau of Consular Affairs should establish a SharePoint
or other collaborative software site for the Human Resources Division to maintain and post
policies, procedures, tracking, and other information for both internal staff and bureau customers.

Informal Recommendation 22: The Bureau of Consular Affairs should implement procedures
to place information needed by the Employee Relations Branch on the Human Resources
Division’s SharePoint site or another collaborative software site.

Informal Recommendation 23: The Bureau of Consular Affairs should provide orientation
material to Human Resources Division offices and agencies located outside the Washington
metropolitan area and monitor material dissemination so that all new bureau employees receive
the information.


                                       27
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 24: The Bureau of Consular Affairs should schedule regular
meetings among the General Services Division director and office directors in other bureau
directorates.

Informal Recommendation 25: The Bureau of Consular Affairs should establish a SharePoint
or other collaborative software site for the General Services Division to maintain and post
policies, procedures, and other information for both internal staff and bureau customers.

Informal Recommendation 26: The Bureau of Consular Affairs should provide continuous
contractor support to the General Services Division’s contracting office.

Informal Recommendation 27: The Bureau of Consular Affairs should establish a clear
supervisory chain of command at the General Services Division stockroom.

Informal Recommendation 28: The Bureau of Consular Affairs should establish written
standard operating procedures concerning the ordering, receiving, and shipping of accountable
consular supplies in the General Services Division.




                                      28
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                        Name     Arrival Date
Executive Director                          James W. Herman             06/12
Deputy Executive Director                       Denise A. Urs           06/12
Senior Management Adviser                   Mary Ellen Hickey           07/12
Division Chiefs:
  Post Analysis and Support                    Cathy L. Hurst          01/12
  Human Resources Division                      Sonia J. Crisp         09/11
  General Services Division                       Greg Segas           08/12




                                    29
                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
1CA              Consular Management Project

CA               Bureau of Consular Affairs

CA/C             Bureau of Consular Affairs, Office of the Comptroller

CA/CST           Bureau of Consular Affairs, Office of Consular Systems and
                 Technology

CA/EX            Bureau of Consular Affairs, Office of the Executive Director

CA/EX/GSD        Bureau of Consular Affairs, Office of the Executive Director,
                 General Services Division

CA/EX/HRD        Bureau of Consular Affairs, Office of the Executive Director,
                 Human Resources Division

CA/EX/PAS        Bureau of Consular Affairs, Office of the Executive Director, Post
                 Analysis and Support

CA/PPT           Bureau of Consular Affairs, Office of Passport Services

CMAT             Consular Management Assistance Team

Department       Department of State

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

GSS              Global Support Strategy

OIG              Office of Inspector General

RCO              Regional consular officer




                            30
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
